No.

3fn tlje Supreme Court of tlje Untteb States*
CYNTHIA METIVIER,
Petitioner,
v.
Deb Haaland, Secretary
DEPARTMENT OF THE INTERIOR,
Respondent.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), the undersigned certifies that
under Rule 29.3, electronic pdf copies of Petitioner's Motion for Leave to Proceed in
Forma Pauperis, Petition for Writ of Certiorari, Certificate of Compliance, and
Certificate of Service are being served by email to Respondent's counsel in the Court
of Appeals to Ana.Voss@usdoj.gov. Also, under Rule 29.4(a), paper copies are being
served by first class mail, postage prepaid, on the following parties:
Elizabeth Prelogar
Acting Solicitor General of the United States
Department of Justice
950 Pennsylvania Ave., N.W., Rm 5616
Washington, D. C. 20530-0001
(202) 514-2203

Debra Haaland
Secretary of the Interior
Department of the Interior
1849 C Street, N.W.
Washington, DC 20240
(202) 208-3100

on this 6th day of May 2021.
Cynthia Metivier, Pro Se Petitioner
10851 B Falling Water Lane
Woodbury, Minnesota 55129
(651) 337-1270

No.

3fn tlje Supreme Court of tlje ?Hmte& States;
CYNTHIA METIVIER,
Petitioner,
v.
Deb Haaland, Secretary
DEPARTMENT OF THE INTERIOR,
Respondent.
CERTIFICATE OF COMPLIANCE

The undersigned certifies that the Petitioner's Motion for Leave to Proceed in
Forma Pauperis and Petition for Writ of Certiorari were prepared in conformity with
the Court's latest COVID-19 document filing Order dated April 15, 2020, and
Supreme Court Rule 33.2, on 8.5"xll" paper, using 12 point and larger Century
Schoolbook font, double-spaced except for block quotes, headings, and footnotes, and
with a page limit of 40 pages for the Petition (excluding the parts exempted by Rule
33.1(d)).

Cynthia Metivier
\
10851 B Falling Water Lane
Woodbury, Minnesota 55129
(651) 337-1270
Pro se Petitioner

